OFFICE OF INSPECTOR GENERAL


Audit of
USAID/Jamaica’s Hurricane
Recovery and Rehabilitation
Activities
AUDIT REPORT NO. 1-532-06-004-P
April 28, 2006




SAN SALVADOR, EL SALVADOR
                Office of Inspector General




April 28, 2006

MEMORANDUM

TO:                USAID/Jamaica Director, Karen D. Turner

FROM:              Regional Inspector General/San Salvador, Timothy E. Cox “/s/”

SUBJECT:           Audit of USAID/Jamaica’s Hurricane Recovery and Rehabilitation
                   Activities (Report No. 1-532-06-004-P)


This memorandum transmits our final report on the subject audit. We have considered
your comments on the draft report and have included your response in its entirety in
Appendix II.

The report contains nine recommendations intended to improve the implementation of the
hurricane recovery and rehabilitation activities in Jamaica. Based on your comments and
documentation provided, management decisions have been reached for eight
recommendations. A management decision will be made for Recommendation No. 6 upon
USAID/Jamaica’s determination of the amount of recovery or the issuance of a bill for
collection. Determination of final action will be made by the Audit Performance and
Compliance Division (M/CFO/APC).

Again, I want to express my appreciation for the cooperation and courtesy extended to
my staff during the audit.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit 3110; APO, AA 34023
Tel (503) 2228-5457 - Fax (503) 2228-5459
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 4

     Were the actions taken by USAID/Jamaica to address the recommendations
     made in Audit Report No. 1-532-05-008-P effective? ................................................ 4

          New Housing Construction Was Delayed ............................................................ 7

          Housing Construction Costs Were Excessive ....................................................... 9

          Ineligible Costs Were Charged to the Program .................................................. 12

          Management Oversight Model Was Not As Effective As Intended ..................... 13

          Some Work Was Not Completed As Planned ..................................................... 15

Evaluation of Management Comments ....................................................................... 17

Appendix I – Scope and Methodology ........................................................................ 18

Appendix II – Management Comments ....................................................................... 21
SUMMARY OF RESULTS
As part of its fiscal year 2006 audit plan, the Regional Inspector General/San Salvador
performed this follow-up audit to answer the following question:

•   Were the actions taken by USAID/Jamaica to address the recommendations made in
    Audit Report No. 1-532-05-008-P effective?

The Mission’s actions in response to three of the five original recommendations in Audit
Report No. 1-532-05-008-P were effective. These recommendations were related to
obtaining qualified engineering services, conducting detailed voucher reviews prior to
making payments, and conducting environmental assessments. The Mission’s actions in
response to the other two original recommendations were only partially effective. These
recommendations were related to establishing clearly defined roles for mission staff and
the mission’s oversight contractor and achieving performance targets on time. (See
pages 4 through 6.)

This report describes several issues that have affected the program:

•   New housing construction in Grenada and Jamaica was not completed on schedule.
    (See page 7.)

•   The cost of the new houses financed by USAID in Grenada was approximately one-
    third to one-half higher than the cost of comparable houses financed by the
    Government of Grenada and the cost of new houses financed by USAID in Jamaica
    was more than double the cost of comparable houses financed by the Government
    of Jamaica. (See page 9.)

•   Ineligible costs of $63,538 were charged to the program and costs of $21,194 were
    incorrectly classified. (See page 12.)

•   The Mission’s management oversight model was not as effective as intended. (See
    page 13.)

•   Work valued at about $341,220 was not completed as planned. (See page 15.)

To address these issues, we are making nine recommendations related to formalizing
revised targets for the program, developing a plan to complete construction of new
houses and turn them over to beneficiaries, controlling the costs associated with any
additional subcontracts, recovering ineligible costs that were charged to USAID, and
ensuring that reconstruction work financed by USAID is completed so that planned
benefits will be realized. (See pages 9 through 16.)

USAID/Jamaica concurred with nine of the ten recommendations included in our draft
audit report. Based on additional information provided by the Mission concerning the
tenth recommendation, we deleted the recommendation and the related narrative from
the final audit report. Management decisions have been reached for eight of the nine
recommendations in this final report. (See page 17.)



                                                                                        1
BACKGROUND
On October 12, 2004, following the devastation caused by Hurricane Ivan and several
other hurricanes, Congress approved $100 million of supplemental funding for
reconstruction efforts in the Caribbean for a one-year period ending on December 31,
2005. Subsequently, this period was extended through June 30, 2006. USAID/Jamaica
received the majority of the funds from the supplemental appropriation and allocated
them as follows:

Table 1: Supplemental Funding Received by USAID/Jamaica

    Island                                              $ million
    Grenada                                                  $40
    Jamaica                                                    18
    Bahamas and Trinidad and Tobago                             2
    Total                                                    $60

As the preceding table shows, USAID/Jamaica’s hurricane recovery and rehabilitation
program was implemented primarily in Grenada and Jamaica. The $58 million program
in Grenada and Jamaica consisted of the following components:

•        Community Rehabilitation ($20.7 million) – Activities included repairing houses
         and constructing new houses. The implementing partner was Planning and
         Development Collaborative International (PADCO) in both Grenada and Jamaica.

•        Business and Agriculture Rehabilitation Component ($13.8 million) – Activities
         included job skills training, grants and technical assistance to small and medium
         enterprises, and support for rehabilitation of the agriculture sector. The
         implementing partners were CARANA Corporation in Grenada and Development
         Alternatives Inc./Fintrac and the Jamaica Exporter’s Association in Jamaica.

•        Schools Rehabilitation and Re-Supply ($12.8 million) – Activities focused on
         school repairs and re-supply of materials and equipment. The implementing
         partner was PADCO in both Grenada and Jamaica.

•        Support of Government Operations ($8 million) – Activities included paying
         certain government utility costs for the Government of Grenada.       The
         implementing partner was Wingerts Consulting, Inc.

Also included in the $58 million budget was $2.7 million for Wingerts Consulting to assist
with oversight of the other contractors. The hurricane recovery program was
implemented through coordination with the Governments of Jamaica and Grenada, other
donors, and implementing partners. In Jamaica, the Government established an agency
– the Office of National Reconstruction (ONR) – to manage and coordinate
reconstruction activities in the country. ONR played a significant role in USAID’s
housing reconstruction efforts because it was responsible for identifying suitable sites for
new houses to replace those that were destroyed, site preparations, and site
development (i.e., electricity, roads, and water and sanitation systems).



                                                                                          2
In February 2005, RIG/San Salvador conducted an audit of the hurricane program to
determine what steps USAID/Jamaica had implemented to manage the program and if
the management processes established for program activities were operating as
designed. The audit report (Report No. 1-532-05-008-P dated April 12, 2005) identified
12 control activities implemented by USAID/Jamaica to manage risks related to program
implementation. Of the 12 control activities, 4 were operating as designed, 3 were
started, but not far enough along to assess whether they were operating as designed,
and 5 were not operating as designed. RIG/San Salvador made five recommendations
related to the following:

1.      Obtaining qualified engineering services.

2.      Conducting detailed voucher reviews before making payments to contractors.

3.      Conducting environmental reviews.

4.      Establishing clearly defined roles for Mission cognizant technical officers (CTOs)1
        and the Mission’s oversight contractor.

5.      Achieving performance targets on time.


AUDIT OBJECTIVE
As part of its fiscal year 2006 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following question:

•        Were the actions taken by USAID/Jamaica to address the recommendations
         made in Audit Report No. 1-532-05-008-P effective?

Appendix I contains a discussion of the audit's scope and methodology.




1
    CTOs are appointed by USAID contracting officers and are responsible for providing technical
    direction to contractors.


                                                                                              3
AUDIT FINDINGS
Were the actions taken by USAID/Jamaica to address the
recommendations made in Audit Report No. 1-532-05-008-P
effective?
USAID/Jamaica took actions to implement all five of the recommendations in our original
audit report. The Mission’s actions in response to three recommendations, related to
obtaining qualified engineering services, conducting detailed voucher reviews, and
conducting environmental reviews, were effective. However, the Mission’s actions in
response to two other recommendations, related to establishing clearly defined roles for
its CTOs and its oversight contractor, and achieving performance targets on time, were
only partially effective. The following sections discuss the recommendations made in
our original report, the Mission’s actions taken on those recommendations, and our
conclusions concurring with the effectiveness of the Mission’s actions.

Original Recommendation No. 1 – We recommended that USAID/Jamaica (1) verify
that quality control procedures were designed by its prime contractors to mitigate the
quality risks, and (2) acquire engineering services to oversee and monitor the quality
control reviews conducted by the subcontractors to mitigate the quality risks.

In response to our recommendation, the Mission (through Wingerts Consulting) hired
additional engineers to verify the control procedures designed by implementing partners
and oversee and monitor quality control reviews conducted by subcontractors to mitigate
quality risks. Quality control oversight was provided on an on-going basis. Wingerts’
engineers regularly visited sub-contractor building sites to determine if third party
architectural and engineering services were engaged and quality controls were in place
and actively applied. In consultation with USAID/Jamaica’s CTOs, Wingerts developed
a site monitoring plan for each construction project. The engineers visited each
construction project according to the plan, discussed any issues with the CTOs,
prepared site visit reports, discussed the reports with CTOs (as needed), and provided
copies of the reports to the CTOs.

We concluded that the Mission’s actions for obtaining engineering services (through
Wingerts) were effective because 1) according to Mission officials and Planning and
Development Collaborative International (PADCO) officials, Wingerts engineers played
an important role in monitoring quality control and for helping to ensure that the
construction projects met intended standards (e.g., Wingerts engineers raised quality
control issues that helped ensure the quality of construction), and 2) during our site visits
to construction sites, we did not observe any quality risk factors (e.g., obvious
construction defects).

Original Recommendation No. 2 – We recommended that USAID/Jamaica incorporate
evaluating supporting documentation in its reviews of vouchers (on a sample basis) to
timely verify that all payments were authorized, properly supported, and valid.




                                                                                           4
In response to our recommendation, the Mission began reviewing supporting
documentation for contractor invoices on a bi-weekly basis to ensure that all payments
made were authorized, properly supported, and valid.

We concluded that the Mission’s actions to address this recommendation were effective
because our testing of $23.5 million in payments disclosed an error rate of only 0.3
percent (i.e., the Mission’s voucher review process was 99.7 percent effective for the
items we tested). (See discussion on page 12.)

Original Recommendation No. 3 – We recommended that USAID/Jamaica complete
an environmental checklist for each project site, which would then be reviewed by the
Mission Environmental Officer.

In response to our recommendation, the Mission developed and implemented an
environmental monitoring system whereby the CTOs and contractors prepared and
completed environmental assessments which were reviewed and approved by the
Mission Environmental Officer.

We determined that the Mission’s actions for conducting environmental assessments
were effective in the sense that they achieved the intended effect and helped the
program avoid environmental issues that otherwise could have potentially impeded
implementation of the program. In our testing, we noted that proper environmental
assessments and approvals were obtained for construction sites and noted that the
program did not experience any problems with environmental issues that were not
handled in a timely manner.

Original Recommendation No. 4 – We recommended that USAID/Jamaica establish
clearly defined roles and responsibilities for its cognizant technical officers and for the
members of the monitoring oversight firm as they related to the hurricane recovery and
rehabilitation program.

In response to our recommendation, the Mission prepared a written document which
clearly defined roles and responsibilities for the CTOs and Wingerts Consulting.

Although the Mission made efforts to better define the relationships and responsibilities
of the CTOs and Wingerts Consulting, we concluded that the mission’s action in
response to the recommendation was only partially effective. Because the other
implementing partners were not accustomed to having Wingerts perform functions that
USAID staff would normally perform, working relationships were sometimes
uncomfortable and required USAID staff to mediate between Wingerts and the
implementing partners. These difficulties decreased over time but continued at a
reduced level throughout the program. The delays and high costs discussed on pages 7
through 12 also indicate that the management model including Wingerts Consulting was
not as effective as intended. (See discussion beginning on page 13.)

Original Recommendation No. 5 – We recommended that the cognizant technical
officers monitor the program by maintaining a spreadsheet of target due dates for each
activity and verify that all activities are completed by the established due date.

In response to our recommendation, the Mission maintained a monthly spreadsheet of
target due dates for each activity and conducted monthly meetings with contractors to


                                                                                         5
review progress of each activity. The Mission also implemented monthly monitoring
reports that covered financial, administrative, procurement, and technical management
of the contractors. In addition, the contractors were required to submit monthly reports
to the Mission on their progress towards achieving targets. The CTOs assessed
progress towards achieving targets each month and adjusted the targets based on
actual experience.

Although the Mission made efforts to monitor program progress, we determined that it
was only partially effective in doing so because the program experienced significant
delays with the construction of the new houses in both Grenada and Jamaica. In
addition, several targets (for new housing construction, institutional structure repairs, and
housing repairs) in Grenada and Jamaica were informally revised after the most recent
amendment to the contract was signed. Moreover, targets were reduced to less than
half the original targets four months before the end of the program. It appeared to us
that targets were not actually used to manage the program. (See discussion beginning
on page 7.)

It should be noted that USAID/Jamaica faced some very difficult constraints in
implementing the program. First, the supplemental appropriation required that the
Mission obligate and spend all funds in a one-year period (later extended to one and a
half years). Under the best of circumstances, this would have been a difficult task.
Second, when the hurricanes struck, USAID/Jamaica had recently undergone a
reduction in force affecting its foreign service national staff, and both the U.S. direct hire
and local staff were relatively inexperienced. Third, the supplemental appropriation
tripled the Mission’s budget, straining staff resources. While this report describes
several problems affecting the hurricane recovery and rehabilitation program, it needs to
be recognized that the positive results achieved under the program to date reflect the
dedicated efforts of Mission staff and its contractors over an extended period. For
example, USAID/Jamaica reported the following accomplishments under the hurricane
program:

•      In Jamaica, approximately 9,700 grants were made to small and medium
       businesses. Through these grants, and through timely technical assistance,
       USAID has helped farmers apply new technologies and practices on their farms.
       Many farmers are reaping harvests with yields surpassing traditional cultivation
       methods, resulting in increased incomes. According to Mission statistics, the
       value of agricultural production by program clients is estimated to have increased
       by 41 percent over their 2003 (pre-Hurricane Ivan) production levels.

•      In Grenada, approximately 2,500 people have been trained in tourism,
       construction, and other skill areas. According to a recent analysis conducted by
       Carana Corporation, approximately 50 percent of the people trained in
       construction were employed.

•      USAID has helped the Government of Grenada maintain key government
       operations after Hurricane Ivan destroyed much of its tax base. To date, USAID
       has expended approximately $5.7 million and has rescheduled approximately 87
       percent of commercial debt.




                                                                                            6
•         In Jamaica and Grenada, approximately 990 houses and 65 schools have been
          repaired.




                                                           Photo taken on January 19, 2006 by an OIG
                                                           auditor of a newly constructed school (Happy
                                                           Hills) financed by USAID/Jamaica in Grenada.
                                                           The school was open and operational on
                                                           January 1, 2006.

The following sections of the report describe problems that have affected the program.

New Housing Construction Was Delayed

    Summary: Based on the contract and a subsequent informal agreement,
    USAID/Jamaica expected PADCO to complete 55 new houses in Grenada and 186
    new houses in Jamaica by March 31, 2006. However, progress was slow and targets
    were not met by that date in either country. Delays in Grenada were caused primarily
    by the poor performance of PADCO’s only subcontractor, and delays in Jamaica were
    caused primarily by the slow performance of Office of National Reconstruction (ONR),
    which was responsible for site selection and preparation and provision of electricity,
    water, septic tanks, and roads. As a result, the families who were expected to occupy
    the new houses continue to live in substandard conditions in makeshift shelters.

According to the contract between USAID/Jamaica and PADCO, PADCO was to
construct 150 new houses in Grenada and 200 new houses in Jamaica during a one-
year period ending on December 31, 2005. Based on a contract amendment and a
subsequent informal agreement, these targets were reduced to 55 houses in Grenada
and 186 houses in Jamaica, and the completion date was extended to March 31, 2006.2
However, progress was slow and targets were not met as of March 31, 2006, in either
country. 3

2
    In addition to the target for new housing construction in Grenada, informal agreements were reached to
    revise many other targets after the most recent amendment to the contract with PADCO. Specifically, the
    number of institutional structures to be built in Grenada was informally reduced from 8 to 5, the number of
    schools was increased from 19 to 20, the number of houses targeted for major repairs in Jamaica was
    reduced from 232 to 96, and the number of schools to be repaired in Jamaica was reduced from 52 to 47.
3
    In Grenada, according to mission officials, as of April 26, 2006, 9 houses have been completed, 28
    houses are 95-100 percent completed, 9 houses are 51-94 percent completed, and 9 houses are under
    50 percent completed. In Jamaica, as of April 26, 2006, no houses have been completed. However, the
    mission estimates that the overall completion of the houses is 92 percent and expects 30 houses to be
    completed by the end of April. The completion date for the construction of 55 new houses in Grenada and
    186 new houses in Jamaica has been extended to June 30, 2006.




                                                                                                             7
Grenada – In Grenada, construction delays have been caused by several factors. Most
importantly, PADCO decided to use only one subcontractor. According to officials we
interviewed at PADCO, the Housing Authority, and the Agency for Reconstruction and
Development4 in Grenada, the subcontractor has performed poorly. In addition, there
were shortages of labor and construction materials, especially cement, and heavy rains
also interfered with construction. Shortages of skilled labor and materials and poor
weather are constraints that are present in nearly all disaster reconstruction projects,
and these factors should have been anticipated by PADCO and incorporated into its
construction plans. Moreover, in our previous audit report, we identified these factors as
significant risks and advised the Mission to take preventive measures (through its
contractors) to prevent these factors from causing implementation delays. In the report,
we noted that, to prevent delays from occurring, the Mission should make sure that its
contractors (1) procured materials and supplies well in advance, (2) monitored
subcontractors carefully to ensure that sufficient human resources were available and be
prepared to replace subcontractors quickly if problems arose, and (3) anticipated the
rainy season and planned construction activities accordingly. However, PADCO did not
take any of these actions and neither the Mission nor Wingerts Consulting responded
effectively to PADCO’s inaction.

Jamaica – In Jamaica, as in Grenada, progress was slow and the new houses were not
completed on schedule. According to PADCO and USAID/Jamaica staff, the houses
were not completed by the original deadline of December 31, 2005 because ONR was
slow to select construction sites and prepare them for PADCO. As in Grenada, PADCO
also cited heavy rains as a cause of construction delays.

At the time of our audit fieldwork, PADCO officials believed that they could complete all
of the houses by March 31, 2006, but expressed concern that the houses may not be
available to turn over to beneficiaries because ONR has not even started the
infrastructure work (i.e., electricity, roads, and water and sanitation systems) promised.
According to PADCO officials, ONR continues to make promises to complete the
required infrastructure work, but has not shown any progress. For example, ONR has
not installed electricity, running water has not been tested, roads have not been paved,
and septic tanks have not been installed. To reduce the risk of theft and vandalism,
PADCO has been reluctant to install fixtures like sinks until utilities have been connected
and the houses are ready to occupy. A contributing cause of these problems, in our
opinion, was the fact that no written agreement was ever signed with ONR; instead, the
Mission and PADCO relied on informal understandings and verbal agreements.




4
    The Housing Authority was an entity established prior to the hurricanes that participated in its
    own reconstruction efforts in Grenada. The Agency for Reconstruction and Development was
    established as a result of the hurricanes to manage and coordinate reconstruction activities.



                                                                                                  8
Photo taken by an OIG auditor on January 16,   Photo taken by an OIG auditor on January 16, 2006
2006 of a new house under construction in      of a makeshift shelter being occupied by a family
Grenada financed by USAID/Jamaica.             of 6 people waiting for the new house (on the left).

As a result of the construction delays discussed above, planned beneficiaries have not
been able to move into the new houses but instead continue to live in difficult conditions
in temporary shelters that they have built for themselves.

    Recommendation No. 1: We recommend that USAID/Jamaica execute a contract
    amendment to ratify the informal changes to output targets that have been
    agreed upon by USAID/Jamaica and Planning and Development Collaborative
    International (PADCO).

    Recommendation No. 2: We recommend that USAID/Jamaica obtain from
    Planning and Development Collaborative International (PADCO) a plan for
    correcting the performance of its subcontractor or obtaining the services of
    additional subcontractors to expeditiously complete new home construction in
    Grenada.

    Recommendation No. 3: We recommend that USAID/Jamaica negotiate a written
    agreement with Office of National Reconstruction (ONR) that describes the work
    to be performed by ONR and a timeline for completing the work.

    Recommendation No. 4: We recommend that USAID/Jamaica finalize written
    arrangements for acceptance of completed houses in Jamaica and turning them
    over to beneficiaries.

Housing Construction Costs Were Excessive

 Summary: The cost of the new houses financed by USAID/Jamaica exceeded the cost
 of comparable houses financed by the Housing Authority in Grenada and ONR in
 Jamaica by 37 percent to 126 percent. The cost was excessive because PADCO was
 not familiar with local market conditions and negotiated unfavorable fixed prices with
 its subcontractors. A contributing cause was that USAID/Jamaica, instead of
 negotiating fixed unit prices with its contractor, agreed to a cost-reimbursement
 contract that allocated all of the cost risk to the Mission. As a result, fewer houses
 than planned can be built with available funds and fewer people will benefit from the
 reconstruction program.



                                                                                                 9
In Grenada, the cost of the houses financed by USAID/Jamaica was 37 percent to 49
percent more than comparable houses financed by the Housing Authority for resale to
the public. (The homes financed by the Housing Authority were built during the same
time period as those financed by USAID/Jamaica and included comparable amenities
such as electricity, roads, and water and sanitation hookups.) The following table
compares the cost of houses financed by USAID/Jamaica (through PADCO) and the
Housing Authority in Grenada:

Table 2: Housing Cost Comparisons for Grenada

                 USAID                             The Housing Authority
                                                                                       Excess
   House Size        Cost      Cost Per     House Size          Cost      Cost Per     Cost Per
                                Square                                     Square      Square
                                 Foot                                       Foot        Foot
    400 sq ft.     $23,467       $59      510 sq. ft.         $21,715       $43          37%
  (2 bedrooms)                            (2 bedrooms)

    600 sq ft.     $38,133        $64     942 sq. ft.         $40,895        $43         49%
  (3 bedrooms)                            (3 bedrooms)




Photo taken by an OIG auditor on January 16,     Photo taken by The Housing Authority in
2006, of a 400 square foot hurricane-resistant   December, 2005, of a 510 square foot steel frame
wooden house in Grenada financed by              house with a tile panel roofing system. This
USAID/Jamaica    that    was     still  under    house    was    built  during    the   hurricane
construction.                                    reconstruction period for resale to the public in
                                                 Grenada.

In Jamaica, the cost of the houses built by PADCO was more than double the cost of
comparable houses built with the same materials and offering comparable amenities.
The following table compares the cost of houses financed by USAID/Jamaica and ONR
in Jamaica.




                                                                                               10
Table 3: Housing Cost Comparison for Jamaica5

                  USAID                                     ONR
                                                                                     Excess
    House Size        Cost       Cost       House Size         Cost       Cost        Cost
                                 Per                                      Per          Per
                                Square                                   Square      Square
                                 Foot                                     Foot        Foot
     220 sq ft.     $13,500      $61       340 sq. ft.        $9,200      $27         126%
      (Studio)                             (1 bedroom)




Photo taken on January 13, 2006 by an OIG
                                                  Photo taken on January 13, 2006 by an OIG
auditor of a house financed by USAID/Jamaica in
                                                  auditor of a house built by the ONR in Jamaica.
Jamaica still under construction.

The cost of USAID-financed houses was excessive because PADCO was not familiar
with local market conditions and negotiated unfavorable fixed prices with its
subcontractors. A contributing cause was that USAID/Jamaica, instead of negotiating
fixed unit prices with its contractor, agreed to a cost-reimbursement contract that
allocated most of the cost risk to the Mission. This is an unorthodox method of
contracting for construction services. Finally, the Mission approved the subcontracts
entered into by PADCO even though the prices were unreasonably high. This indicates
that the Mission did not perform adequate technical, engineering, and financial planning
prior to initiating the new housing construction activity. It also indicates that Wingerts
Consulting, the Mission’s oversight contractor, was not sufficiently familiar with local
market conditions and did not perform adequate analysis to determine the
reasonableness of the subcontractor costs in order to properly advise the Mission.

The high cost of constructing the new homes limited the program’s efficiency and
ultimately its effectiveness, since the Mission will only be able to finance 241 new
houses versus the 350 new houses originally agreed to in the contract with PADCO. As
a result, the Mission will not be able to help the expected number of people who were
affected by the hurricanes. Since PADCO has already negotiated fixed rates with its
subcontractors, costs may not rise further. If, however, PADCO enters into additional
subcontracts, the Mission should assure itself that the negotiated fixed prices are
reasonable.

5
    We used an exchange rate of $60 Jamaican dollars to $1USD.


                                                                                            11
   Recommendation No. 5: USAID should examine the costs of comparable new
   houses and conduct adequate technical, engineering, and financial planning prior
   to approving any additional subcontracts negotiated by Planning and
   Development Collaborative International (PADCO).

Ineligible Costs Were Charged to the Program

Summary: Section 31.201-3 of the Federal Acquisition Regulations (FAR) requires costs
to be reasonable, allocable, and allowable under the terms of the contract. However, we
identified $63,538 in ineligible costs (mainly representing charges for staff who were not
working on USAID-funded projects as well as lodging, per diem, and staff charges that
were unreasonable) and $21,194 in improperly classified expenses. These charges,
representing 0.3 percent of the expenses we tested, occurred because of oversights by
USAID/Jamaica and PADCO. As a result, fewer funds were available to pay allowable
program costs.

According to FAR 31.201-3, costs must be reasonable, allocable, and allowable. A cost
is considered reasonable if it does not exceed that which would be incurred by a prudent
person in the conduct of competitive business. A cost is considered to be allocable if it
is assignable or chargeable to one or more cost objectives on the basis of relative
benefits received or other equitable relationship. A cost is allowable if it conforms to
agreement provisions.

The audit disclosed $63,538 in ineligible costs (costs that are not reasonable, allocable, or
allowable under the terms of PADCO’s contract) and $21,194 in improperly classified costs
(costs that were charged to wrong projects) charged to USAID. These costs are
summarized in the following table.

Description                                                    Ineligible      Improperly
                                                                 Costs          Classified
Non-project staff charges – several PADCO staff                    $32,409
members charged time, travel, and other expenses to
the project although they did not work on the contract.
Charges made after termination – several PADCO staff                  7,594
members continued to charge time, travel, and other
expenses after ending their involvement with the
contract.
Lodging, per diem, and staff charges that, based on                  22,925
discussions with USAID staff, were considered to be
unreasonable in amount.
Duplicate payment – a duplicate payment was made for                    610
an allowance paid to a PADCO staff member.
Charges to wrong country – expenses were charged to                                $16,304
the correct project (i.e., schools) but to the wrong
country (i.e., Jamaica instead of Grenada).
Charges to wrong project – expenses were charged to                                   4,890
the wrong project (i.e. housing expenses were charged
to schools).
Total                                                              $63,538         $21,194



                                                                                          12
The total ineligible and misclassified expenses represent approximately 0.3 percent of
the $23.5 million in expenses we reviewed. We concluded that USAID/Jamaica’s
voucher review process was a sound one; however, $63,538 in ineligible costs were
paid because of oversights by USAID/Jamaica and PADCO. As a result, fewer funds
were available to pay allowable program costs.

     Recommendation No. 6: We recommend that USAID/Jamaica make a
     management decision with regard to the ineligible questioned costs of $63,538
     and recover from Planning and Development Collaborative International
     (PADCO) the amounts determined to be unallowable.

     Recommendation No. 7: We recommend that USAID/Jamaica reclassify $21,194
     of misclassified expenses to the proper projects and countries.

Management Oversight Model Was Not As Effective As Intended

 Summary: USAID/Jamaica contracted with Wingerts Consulting to perform functions
 that would typically be performed by USAID staff. Wingerts was engaged to monitor,
 review, and provide expert assessments to USAID of the processes and
 documentation utilized by the implementing contractors to assure cost
 reasonableness, quality control, delivery of final product, and, ultimately, to serve as
 an extension of the Mission. Wingerts worked with the CTOs and the implementing
 contractors to provide pre-tender and pre-award certifications, perform site visits and
 environmental monitoring during execution of construction contracts and grants, and
 prepare progress reports on activities undertaken by implementing partners. While
 this oversight model was innovative and had the advantage of reducing
 USAID/Jamaica’s heavy workload, the model was problematic in that the
 implementing partners were not accustomed to having Wingerts perform functions that
 USAID staff would normally perform. USAID staff believed that they could have
 helped mitigate some of the problems experienced by Wingerts by better introducing
 Wingerts, and the somewhat unusual role that Wingerts was expected to play, to the
 other partners on the hurricane program. As a result, working relationships were
 sometimes uncomfortable and required USAID staff to mediate between Wingerts and
 the implementing partners. These difficulties decreased over time but continued at a
 reduced level throughout the program.

On January 16, 2005, USAID/Jamaica contracted Wingerts Consulting to serve as the
Mission’s on-site management contractor. In this capacity, the Wingerts team acted as
an extension of the USAID/Jamaica staff, which was tasked with overseeing hurricane
recovery activities. Specifically, Wingerts Consulting was responsible for the following
tasks:

1.      Performing USAID representation and liaison functions (i.e., establishing and
        maintaining regular communications with CTOs, the U.S. embassies in Grenada
        and Jamaica, key government officials in Grenada and Jamaica, and NGOs).

2.      Ensuring regular and timely progress reporting and overall program analysis (i.e.,
        consolidating reporting results of implementing partners and preparing narrative
        reports).



                                                                                       13
3.     Preparing and disseminating special reports, including evaluations (i.e.,
       responding to inquiries and preparing special reports that require research).

4.     Planning and coordinating USAID public relations activities.

5.     Organizing monthly USAID special program objective team meetings.

6.     Developing and monitoring implementation of assistance in the Bahamas and
       Trinidad and Tobago (i.e., helping USAID and PADCO agree on final design of
       assistance activities and help CTOs oversee implementation of the $2 million
       obligated for assistance in the other islands).

7.     Developing and maintaining partnership with CTOs and USAID implementing
       partners (i.e., helping CTOs oversee implementation of the program).

8.     Providing specialized engineering assistance (i.e., performing functions that
       would typically be performed by a USAID staff engineer such as monitoring and
       reviewing the processes utilized by the implementing contractor to assure cost
       reasonableness, quality control, and delivery of a final product that is consistent
       with the results expected).

9.     Performing general management responsibilities.

10.    Providing logistics assistance to USAID staff, VIPs, and USAID partners.

11.    Managing the Government of Grenada support program.

As this listing of responsibilities shows, Wingerts performed numerous functions that
would normally be performed by USAID staff. USAID/Jamaica decided to contract out
these functions because its own staff was relatively inexperienced and because the
Mission believed it would take longer to hire USAID staff than it would take a contractor
to mobilize to perform the same functions. However, according to several USAID staff,
the Wingerts contract caused discomfort for the Mission, the implementing partners, and
Wingerts itself because Wingerts performed functions that would normally be performed
by others. It was several months into the contract before the roles and responsibilities of
each party were better defined. Still, the discomfort and difficulties continued, although
at a reduced level, and caused USAID staff to be mediators between the implementing
partners and Wingerts Consulting. The construction delays and high costs discussed on
pages 7 through 12 above also cast doubt on the effectiveness of the management
model in which Wingerts Consulting performed functions that would normally be
performed by USAID staff.

According to the Mission Director, this was the first time that this management model
has been used by USAID. The model was used for several reasons: it helped
compensate for the relative inexperience of the Mission’s CTOs, it provided a high
degree of flexibility, and it gave the Mission access to skills (e.g. engineering skills) that
were not available among its own staff. USAID staff believed that they could have eased
some of the problems experienced by Wingerts if they had more carefully introduced
Wingerts, and the unusual role Wingerts was expected to play, to the other partners
under the hurricane program.



                                                                                           14
We are not making any recommendations on this matter since the program is ending.
However, the Mission should document its experience with this management model in its
lessons learned from the hurricane recovery and rehabilitation program.

Some Work Was Not Completed As Planned

    Summary: Work valued at about $341,220 was not completed as planned. These
    situations, where work was only partially completed, reflected weaknesses in oversight
    by USAID’s partners. As a result, $123,720 in USAID funds are available to be
    reprogrammed for use elsewhere by PADCO. Also, the intended benefits from grants
    totaling $217,500 have not yet been realized.

We examined infrastructure projects and grants valued at about $2.3 million and noted
cases valued at $341,220 where subcontractors had not completed work as required by
their subcontracts, or where follow up was needed so that the benefits envisioned under
specific grants would be realized. The following is a summary of these instances:

•         In Grenada, PADCO has decided not to complete 5 of the 60 houses it agreed to
          construct (according to the contract modification dated August 12, 2005).
          PADCO made these decisions because of land ownership issues, because
          another donor had already provided a house for the planned beneficiary, or
          because the planned beneficiary decided not to participate in the program.
          Three of the five houses were cancelled before construction began and two were
          substantially completed before PADCO decided they should not be completed.
          After taking into consideration the work that has already been performed,
          approximately $117,800 is available to be reprogrammed for other uses under
          PADCO’s contract, and ultimately to be returned to USAID at the end of the
          program if no additional costs are incurred by the contractor. PADCO needs to
          issue a change order to its subcontractor to reflect the cancellation of the five
          houses.

•         In Jamaica, two houses were included in a subcontract as a core rebuild, with an
          average cost of $7,300. However, the two houses were subsequently changed
          to receive only major repairs (mainly new roofs) with an average cost of $4,500.
          Change orders should be prepared to reflect the actual work performed on the
          houses. The cost difference between a core rebuild and a major repair for two
          houses is approximately $5,600.

•         In Jamaica, at one house, electrical work was supposed to be installed, but was
          not. A change order should be prepared to reduce the contract value for
          electrical work not installed. The cost for the electrical work is approximately
          $320.

•         In Grenada, USAID awarded approximately $100,000 to Belmont Plantation
          Company to support the restoration of the plantation’s restaurant and museum
          operations. The support included reconstruction of the restaurant and museum
          which included the foundation, floor, roof structure, doors, kitchen vanities,
          plumbing, electrical, and painting. The grant has ended, but only the foundation
          of the restaurant has been completed and the museum also requires a great deal




                                                                                        15
       of work to be completed. Also, the grant financed window blinds for the
       restaurant and other items for the museum that have not yet been delivered.

•      In Grenada, USAID provided a $100,000 grant to De La Grenade Industries Ltd.
       (a food processing business) for roofing repairs and a new production line. The
       roofing materials have been purchased and delivered to the construction site but
       little work has been done on the roof. The owner of the company has made
       several requests to the construction company but is uncertain when the roof will
       be installed. Furthermore, the equipment purchased for the new production line
       has not yet been operational.

•      In Grenada, a grant was provided to South Coast Holdings, Ltd. to finance new
       software at a cost of $17,500. The software was delivered several months ago
       but had not been installed as of January 20, 2005.

These situations reflected weaknesses in management and oversight by PADCO,
Wingerts Consulting, and the Carana Corporation. As a result, $123,720 in USAID
funds are available to be reprogrammed for use elsewhere by PADCO. Also, the
intended benefits from grants totaling $217,500 have not yet been realized.

    Recommendation No. 8: We recommend that USAID/Jamaica obtain evidence
    that Planning and Development Collaborative International (PADCO) has
    processed change orders for $123,720 for work that was not completed by
    subcontractors as planned.

    Recommendation No. 9: We recommend that USAID/Jamaica obtain evidence
    that the planned benefits of grant activities have been realized.




                                                                                    16
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Jamaica’s comments to the draft report are included in Appendix II.

The Mission agreed with nine of the ten recommendations in the draft audit report. For the
tenth recommendation, the Mission provided additional information explaining why an
activity that did not initially appear to us to respond to the effects of Hurricane Ivan was in
fact related to hurricane reconstruction. Based on the additional information provided, we
have deleted the tenth recommendation and the related narrative from this final audit
report.

Management decisions have been reached for all of the recommendations included in this
final report except for Recommendation No. 6. In order to record a management decision
for this monetary recommendation, USAID/Jamaica needs to reach a firm management
decision on the amount, if any, to be recovered from Planning and Development
Collaborative International (PADCO). Determination of final action for all of the report
recommendations will be made by the Audit Performance and Compliance Division
(M/CFO/APC).




                                                                                            17
                                                                           APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this audit in accordance with
generally accepted government auditing standards. The audit was performed in
Jamaica and Grenada at the offices of USAID/Jamaica, CARANA Corporation, Planning
and Development Collaborative International (PADCO), governmental offices and
selected program communities. Fieldwork was conducted from January 10, 2006
through February 6, 2006. The purpose of this audit was to follow up on the
recommendations made in our original report.

In February 2005, the Regional Inspector General/San Salvador conducted an audit of
the hurricane program to determine what steps USAID/Jamaica implemented to manage
its hurricane recovery and rehabilitation program and if the management processes
established for the hurricane recovery and rehabilitation activities were operating as
designed (Report No. 1-532-05-008-P dated April 12, 2005). RIG/San Salvador made
recommendations to USAID/Jamaica related to (1) obtaining qualified engineering
services, (2) conducting detailed voucher reviews before making payments to
contractors (3) conducting environmental reviews, (4) establishing clearly defined roles
for its cognizant technical officers (CTOs) and oversight contractor, and (5) achieving
performance targets on time. This audit was conducted to determine if the actions taken
by USAID/Jamaica to address the recommendations from audit report (Report No. 1-
532-05-008-P) were effective.

In planning and performing the audit, we reviewed and assessed the effectiveness of
USAID/Jamaica internal controls related to the Hurricane Recovery and Rehabilitation
Program. The significant USAID/Jamaica controls reviewed included obtaining qualified
engineering services, conducting detailed voucher reviews, establishing roles and
responsibilities for the oversight contractor and CTOs, reviewing contractor performance
and financial reports, conducting site visits, and maintaining regular contact with the
contractors.

To determine if the Mission obtained qualified engineering services, conducted
environmental reviews, and achieved performance targets on time, we conducted site
visits covering new housing construction, housing repairs, schools repairs and
reconstruction, and business revitalization activities in Jamaica and Grenada.
Specifically, In Jamaica:

•      Out of a total of 186 new homes constructed in two communities, Rocky Point
       and Portland Cottage, we visited both communities and examined a judgmental
       sample of 10 houses.

•      Out of a total of 932 housing repairs being worked on by 22 subcontractors, we
       judgmentally selected 3 subcontractors (based on location), and visited a total of
       18 housing repair jobs.

•      Out of a total of 49 schools being repaired by the program, we judgmentally
       selected (based on location) 2 schools to visit.


                                                                                      18
                                                                           APPENDIX I



•      Out of a total of 3,088 fisherman and craft shops assisted by the program we
       judgmentally selected (based on location) a total of 8 fisherman and 3 craft
       shops.

In Grenada:

•      Out of a total of 60 new houses being built under the program, we judgmentally
       selected (based on progress and size) 13 for site visits.

•      Out of a total of 675 housing repairs awarded to 28 organizations, we
       judgmentally selected (based on the value of the grant) 3 organizations for a total
       of 8 housing repairs.

•      Out of a total of 17 school repairs, we judgmentally selected (based on progress
       and the value of repairs) 6 schools for site visits.

•      Out of 192 grants provided to small and medium enterprises, we judgmentally
       selected (based on value and type of grant) 8 grants for review.

For all the site visits made, we judgmentally selected 10 engineering reports and 12
environmental assessments to review. We reviewed the engineering reports during our
site visits to ensure that issues identified in the reports were properly resolved. We
reviewed environmental assessments to ensure that they were properly completed and
approved by the Mission. To determine the effectiveness of the voucher reviews, we
reviewed all vouchers submitted as of January 20, 2006 which included the November
30, 2005 vouchers.

The audit covered community and schools rehabilitation activities implemented by
Planning and Development Collaborative International (PADCO) in both Grenada and
Jamaica. The audit also covered business and agriculture rehabilitation activities
implemented by CARANA Corporation in Grenada and Development Alternatives
Inc./Fintrac and the Jamaica Exporter’s Association in Jamaica. As of December 31,
2005, $49 million of the $58 million has been spent on the program.

Methodology
To answer the objective described in the scope section, we reviewed contract
agreements with implementing partners and the bilateral agreement with the
Government of Jamaica, implementing partners’ monthly progress reports, Wingerts
monthly progress reports, engineering reports, and environmental reports. We also
verified actual results during the site visits for the activities mentioned in the scope
section. We interviewed cognizant technical officers, implementing partner officials, host
government officials, and selected beneficiaries

In addition, we reviewed all vouchers submitted by PADCO to USAID as of January 20,
2006, which covered vouchers submitted through November 30, 2005. We reviewed the
vouchers to determine if staff charged to the projects actually worked on the projects,
per diem and lodging charges were allowable in accordance with contract provisions,
and costs were charged to the correct projects. We also conducted tests to detect


                                                                                       19
                                                                              APPENDIX I

duplicate charges. Our review consisted of reviewing detailed vouchers (statements of
expenses) and did not include reviewing supporting documents such as invoices or
timesheets except for selected charges that required clarification.

In answering the audit objective, we considered exceptions totaling 5 percent or more of the
cases tested to represent significant issues meriting reporting. We considered all ineligible
and misclassified expenses to merit reporting.




                                                                                          20
                                                                                 APPENDIX II



MANAGEMENT COMMENTS
                     USAID/Jamaica
                     Office of Financial Management


Memorandum
To:       Timothy E. Cox, Regional Inspector General, San Salvador

Through: Karen D. Turner, Mission Director, USAID/J-CAR

From:     S. Peter Klosky, Controller, USAID/J-CAR

Date:     April 12, 2006

Subject: Draft Report on Audit of USAID/Jamaica’s Hurricane Recovery and Rehabilitation

           Program Reference: RIG Audit Report Number 1-XXX-06-0XX-P




We refer to your memorandum and draft report on the above-mentioned audit and now enclose
our management comments to the ten (10) recommendations contained in your report.

Recommendation No. 1:

We recommend that USAID/Jamaica execute a contract amendment to ratify the informal
changes to output targets that have been agreed upon by USAID/Jamaica and Planning and
Development Collaborative International (PADCO).

USAID Jamaica-Car’s Management Comments:

Agreed. Action will be completed in amendment to the Community Revitalization Task Order No.
802.

Recommendation No. 2:

We recommend that USAID/Jamaica obtain from PADCO a plan for correcting the performance
of its subcontractor or obtaining the services of additional subcontractors to expeditiously
complete new home construction in Grenada.

USAID Jamaica-Car’s Management Comments:

Agreed. A comprehensive action plan has been developed for completing the houses. Monitoring
will include weekly visits by the oversight engineer and the USAID/Jamaica-Car team. In addition,
weekly updates on the status and projections for completion of the houses will be prepared.

Recommendation No. 3:



                                                                                              21
                                                                                APPENDIX II

We recommend that USAID/Jamaica negotiate a written agreement with ONR that describes the
work to be performed by ONR and a timeline for completing the work.

USAID Jamaica-Car’s Management Comments:

Agreed. Negotiations are currently underway between governments to determine the optimal
agreement mechanism.

Recommendation No. 4:

We recommend that USAID/Jamaica finalize written arrangements for acceptance of completed
houses in Jamaica and turning them over to beneficiaries.

USAID Jamaica-Car’s Management Comments:

Agreed. Negotiations are currently underway between governments to determine the optimal
agreement mechanism. This will include the detailed requirements for the handing over of the
houses.

Recommendation No. 5:

USAID should examine the costs of comparable new houses and conduct adequate technical,
engineering, and financial planning prior to approving any additional subcontracts negotiated by
PADCO.

USAID Jamaica-Car’s Management Comments:

Agreed. No further subcontracts are anticipated. However, USAID Jamaica will utilize the best
information available in approving future works including conducting adequate technical,
engineering and financial planning.

Recommendation No. 6:

We recommend that USAID/Jamaica make a management decision with regard to the ineligible
questioned costs of $63,040 and recover from PADCO the amounts determined to be
unallowable.

USAID Jamaica-Car’s Management Comments:

Agreed. USAID/Jamaica has made a management decision to review the ineligible questioned
costs and recover from PADCO the amounts that are determined to be unallowable.

Recommendation No. 7:

We recommend that USAID/Jamaica reclassify $21,194 of misclassified expenses to the proper
projects and countries.

USAID Jamaica-Car’s Management Comments:

Agreed. USAID/Jamaica has made a management decision to reclassify the amounts determined
to be misclassified.

Recommendation No. 8:

We recommend that USAID/Jamaica obtain evidence that PADCO has processed change orders
for $123,720 for work that was not completed by subcontractors as planned.

USAID Jamaica-Car’s Management Comments:
                                                                                             22
                                                                                 APPENDIX II


Agreed. Change orders have been approved and contract modifications are currently underway
for 5 houses in Grenada.

Recommendation No. 9:

We recommend that USAID/Jamaica obtain evidence that the planned benefits of grant activities
have been realized.

USAID Jamaica-Car’s Management Comments:

Agreed.

    (i)     The effective completion date for the Belmont Plantation Company grant was
            extended to April 30, 2006 to enable completion of repair work to the museum.
    (ii)    The roof repairs pertaining to the $100,000 grant to La De LA Grenade Industries
            Limited has been completed and the equipment purchased for the new production
            line for $45,000 has been placed in operation.
    (iii)   With respect to the grant that was provided to South Coast Holdings, Ltd. to finance
            new software, the software installation has been completed.

Recommendation No. 10:

We recommend that USAID/Jamaica charge $45,000 that was used for a new production line to
another available appropriation.

USAID Jamaica-Car’s Management Comments:

Disagreed. Approximately 50% of the operations of the food processing company depended on
the supply of jams, jellies and syrup to the market, using raw materials from tree crops which
were largely destroyed by the hurricane. In addition, the tree crops would take several years to
begin bearing again. We approved the assistance to this sub-activity because the installation of
the new plant line would use short-term crops to produce seasoning and condiments which
provided diversification of the future risk of the plant. This was considered a viable venture for
USAID/ Jamaica-Car’s support given the various market linkages and jobs at risk and because
revitalizing the economy was identified and agreed to as an important object of the Hurricane
Program at the time the SpO was approved.




                                                                                               23
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
            Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
